-              -
                     CLOSEOUT FOR M93100052
     This case was brought to OIG on October 18, 1993 by
              (the complainant) of the
                     in 4
                       he was  co-P.I. on
                                            -
                                       ' With !
                                          -Dl
                                                            &
                                                     entitled
                                                             -
                                            Because of conflicts
between the subject and the complainant, the complainant did not
see, write, approve, or sign the final report (Form 98A) for the
award. He expressed concern that his signature had been forged to
this document.
     OIG has examined the document. The complainant's signature
does not appear on it, forged or otherwise. Thus there is no
substance to the allegation. ~hi.scase is closed and no further
action will be taken.
